  COMPLIANCE WITH STANDARDS GOVERNING
COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
 FLORIDA DEPARTMENT OF LAW ENFORCEMENT
   ORLANDO REGIONAL CRIME LABORATORY
            ORLANDO, FLORIDA

          U.S. Department of Justice
        Office of the Inspector General
                 Audit Division
         Audit Report GR-40-11-002
                 March 2011
        COMPLIANCE WITH STANDARDS GOVERNING
     COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
       FLORIDA DEPARTMENT OF LAW ENFORCEMENT
         ORLANDO REGIONAL CRIME LABORATORY
                  ORLANDO, FLORIDA

                            EXECUTIVE SUMMARY


      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Florida Department
of Law Enforcement, Orlando Regional Crime Laboratory (Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS program combines
forensic science and computer technology to provide an investigative tool to
federal, state, and local crime laboratories in the United States, as well as
those from select international law enforcement agencies. The CODIS
program allows these crime laboratories to compare and match DNA profiles
electronically to assist law enforcement in solving crimes and identifying
missing or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS, as
well as develops, supports, and provides the program to crime laboratories
to foster the exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enable federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. The National DNA Index System (NDIS), the
highest level in the hierarchy, is managed by the FBI as the nation’s DNA
database containing DNA profiles uploaded by law enforcement agencies
across the United States. NDIS enables the laboratories participating in the
CODIS program to electronically compare DNA profiles on a national level.
The State DNA Index System (SDIS) is used at the state level to serve as a
state’s DNA database containing DNA profiles from local laboratories and

       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.



                                              i
state offenders. The Local DNA Index System (LDIS) is used by local
laboratories.

OIG Audit Objectives

      Our audit generally covered the period from November 2008 through
October 2010. The objectives of our audit were to determine if: (1) the
Florida Department of Law Enforcement, Orlando Regional Crime Laboratory
was in compliance with the NDIS participation requirements; (2) the
Laboratory was in compliance with the Quality Assurance Standards (QAS)
issued by the FBI; and (3) the Laboratory’s forensic DNA profiles in CODIS
databases were complete, accurate, and allowable for inclusion in NDIS.

       Our review determined the following.

   •   The Laboratory complied with the NDIS participation requirements we
       reviewed.

   •   The Laboratory complied with the Quality Assurance Standards we
       reviewed.

   •   We reviewed 100 of the 6,980 forensic profiles the Laboratory had
       uploaded to NDIS as of October 15, 2010. Of the 100 forensic profiles
       sampled, 4 were unallowable for upload to NDIS. The unallowable
       profiles either belonged to a victim or could not be connected to the
       crime. The CODIS Administrator removed all four profiles from NDIS
       either before our on-site work began or during our on-site work.
       Because all four unallowable profiles were processed by the Laboratory
       more than 5 years ago, it appears the Laboratory is now following
       procedures to prevent entry of unallowable profiles into CODIS. The
       remaining 96 profiles we reviewed were complete, accurate, and
       allowable for inclusion in NDIS.

      The results of our audit are discussed in detail in the Findings section
of the report. Our audit objectives, scope, and methodology are detailed in
Appendix I of the report and the audit criteria are detailed in Appendix II.

      We discussed the results of our audit with Laboratory officials and
have included their comments in the report as applicable.




                                       ii
                                TABLE OF CONTENTS


INTRODUCTION ................................................................................ 1
   Background ..................................................................................... 1
   OIG Audit Objectives ........................................................................ 1
   Legal Foundation for CODIS ............................................................... 1
   CODIS Structure .............................................................................. 2
   Laboratory Information ..................................................................... 6

FINDINGS AND RECOMMENDATIONS................................................ 7
   I.    Compliance with NDIS Participation Requirements .......................... 7
   II.   Compliance with the Quality Assurance Standards ........................ 10
   III. Suitability of Forensic DNA Profiles in CODIS Databases................ 13

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ............... 16

APPENDIX II: AUDIT CRITERIA ..................................................... 19
   NDIS Participation Requirements ...................................................... 19
   Quality Assurance Standards ........................................................... 20
   Office of the Inspector General Standards ......................................... 21

APPENDIX III: FEDERAL BUREAU OF INVESTIGATION
              RESPONSE ………………………………………………………22

APPENDIX IV: OFFICE OF THE INSPECTOR GENERAL ANALYSIS
              AND SUMMARY OF ACTIONS NECESSARY TO
              CLOSE REPORT ………………………………………………..23
                                 INTRODUCTION


      The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Florida Department
of Law Enforcement, Orlando Regional Crime Laboratory (Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS provides an
investigative tool to federal, state, and local crime laboratories in the United
States using forensic science and computer technology. The CODIS program
allows these laboratories to compare and match DNA profiles electronically,
thereby assisting law enforcement in solving crimes and identifying missing
or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS and is
responsible for its use in fostering the exchange and comparison of forensic
DNA evidence.

OIG Audit Objectives

       Our audit covered the period from November 2008 through October
2010. The objectives of our audit were to determine if: (1) the Florida
Department of Law Enforcement, Orlando Regional Crime Laboratory was in
compliance with the National DNA Index System (NDIS) participation
requirements; (2) the Laboratory was in compliance with the Quality
Assurance Standards (QAS) issued by the FBI; and (3) the Laboratory’s
forensic DNA profiles in CODIS databases were complete, accurate, and
allowable for inclusion in NDIS. Appendix I contains a detailed description of
our audit objectives, scope, and methodology; and Appendix II contains the
criteria used to conduct our audit.

Legal Foundation for CODIS

      The FBI’s CODIS program began as a pilot project in 1990. The DNA
Identification Act of 1994 (Act) authorized the FBI to establish a national
index of DNA profiles for law enforcement purposes. The Act, along with


       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.


                                             1
subsequent amendments, has been codified in a federal statute (Statute)
providing the legal authority to establish and maintain NDIS. 2

Allowable DNA Profiles

      The Statute authorizes NDIS to contain the DNA identification records
of persons convicted of crimes, persons who have been charged in an
indictment or information with a crime, and other persons whose DNA
samples are collected under applicable legal authorities. Samples voluntarily
submitted solely for elimination purposes are not authorized for inclusion in
NDIS. The Statute also authorizes NDIS to include analysis of DNA samples
recovered from crime scenes or from unidentified human remains, as well as
those voluntarily contributed from relatives of missing persons.

Allowable Disclosure of DNA Profiles

       The Statute requires that NDIS only include DNA information that is
based on analyses performed by or on behalf of a criminal justice agency –
or the U.S. Department of Defense – in accordance with QAS issued by the
FBI. The DNA information in the index is authorized to be disclosed only:
(1) to criminal justice agencies for law enforcement identification purposes;
(2) in judicial proceedings, if otherwise admissible pursuant to applicable
statutes or rules; (3) for criminal defense purposes, to a defendant who shall
have access to samples and analyses performed in connection with the case
in which the defendant is charged; or (4) if personally identifiable
information (PII) is removed for a population statistics database, for
identification research and protocol development purposes, or for quality
control purposes.

CODIS Structure

       The FBI implemented CODIS as a distributed database with
hierarchical levels that enable federal, state, and local crime laboratories to
compare DNA profiles electronically. CODIS consists of a hierarchy of three
distinct levels: (1) NDIS, managed by the FBI as the nation’s DNA database
containing DNA profiles uploaded by participating states; (2) the State DNA
Index System (SDIS), which serves as a state’s DNA database containing
DNA profiles from local laboratories within the state and state offenders; and
(3) the Local DNA Index System (LDIS), used by local laboratories. DNA
profiles originate at the local level and then flow upward to the state and, if
allowable, national level. For example, the local laboratory in the Palm
Beach County, Florida, Sheriff’s Office sends its profiles to the state

      2
          42 U.S.C.A. § 14132 (2006).

                                        2
laboratory in Tallahassee, which then uploads the profiles to NDIS. Each
state participating in CODIS has one designated SDIS laboratory. The SDIS
laboratory maintains its own database and is responsible for overseeing
NDIS issues for all CODIS-participating laboratories within the state. The
graphic below presents an example of how the system hierarchy works.

                 Example of System Hierarchy within CODIS

                                              NDIS
                                   Maintained by the FBI




SDIS                            SDIS                             SDIS
Laboratory                      Laboratory                       Laboratory
Richmond, CA                    Springfield, IL                  Tallahassee, FL



                                  LDIS Laboratories (partial list):
                                  DuPage County Sheriff’s Office
                                  Illinois State Police, Chicago
                                  Illinois State Police, Rockford

 LDIS Laboratories (partial list):                       LDIS Laboratories (partial list):
 Orange County Sheriff’s Department                      Broward County Sheriff’s Office
 San Bernardino County Sheriff’s Department              Miami-Dade Police Department
 San Diego Police Department                             Palm Beach County Sheriff’s Office



National DNA Index System

      NDIS is the highest level in the CODIS hierarchy and enables the
laboratories participating in the CODIS program to electronically compare
DNA profiles on a national level. NDIS does not contain names or other PII
about the profiles. Therefore, matches are resolved through a system of
laboratory-to-laboratory contacts. Within NDIS are eight searchable indices
discussed below.

       •   Convicted Offender Index contains profiles generated from persons
           convicted of qualifying offenses. 3



       3
         The phrase “qualifying offenses” is used here to refer to local, state, or federal
crimes that require a person to provide a DNA sample in accordance with applicable laws.


                                                  3
       •   Arrestee Index is comprised of profiles developed from persons who
           have been arrested, indicted, or charged in an information with a
           crime.

       •   Legal Index consists of profiles that are produced from DNA
           samples collected from persons under other applicable legal
           authorities. 4

       •   Detainee Index contains profiles from non-U.S. persons detained
           under the authority of the U.S. and required by law to provide a
           DNA sample for analysis and entry into NDIS.

       •   Forensic Index profiles originate from, and are associated with,
           evidence found at crime scenes.

       •   Missing Person Index contains known DNA profiles of missing
           persons and deduced missing persons.

       •   Unidentified Human (Remains) Index holds profiles from
           unidentified living individuals and the remains of unidentified
           deceased individuals. 5

       •   Relatives of Missing Person Index is comprised of DNA profiles
           generated from the biological relatives of individuals reported
           missing.

      Given these multiple databases, the main functions of CODIS are to:
(1) generate investigative leads that may help in solving crimes and
(2) identify missing and unidentified persons.

       The Forensic Index generates investigative leads in CODIS that may
help solve crimes. Investigative leads may be generated through matches
between the Forensic Index and other indices in the system, including the
Convicted Offender, Arrestee, and Legal Indices. These matches may
provide investigators with the identity of suspected perpetrators. CODIS
also links crime scenes through matches between Forensic Index profiles,
potentially identifying serial offenders.



       4
         An example of a Legal Index profile is one from a person found not guilty by
reason of insanity who is required by the relevant state law to provide a DNA sample.
       5
           An example of an Unidentified Human (Remains) Index profile from a living person
is a profile from a child or other individual, who cannot or refuses to identify themselves.

                                             4
       In addition to generating investigative leads, CODIS furthers the
objectives of the FBI’s National Missing Person DNA Database program
through its ability to identify missing and unidentified individuals. For
instance, those persons may be identified through matches between the
profiles in the Missing Persons Index and the Unidentified Human (Remains)
Index. In addition, the profiles within the Missing Persons and Unidentified
Human (Remains) Indices may also be vetted against the Forensic,
Convicted Offender, Arrestee, Detainee, and Legal Indices to provide
investigators with leads in solving missing and unidentified persons cases.

State and Local DNA Index System

       The FBI provides CODIS software free of charge to any state or local
law enforcement laboratory performing DNA analysis. Laboratories are able
to use the CODIS software to upload profiles to NDIS. However, before a
laboratory is allowed to participate at the national level and upload DNA
profiles to NDIS, a Memorandum of Understanding (MOU) must be signed
between the FBI and the applicable state’s SDIS laboratory. The MOU
defines the responsibilities of each party, includes a sublicense for the use of
CODIS software, and delineates the standards laboratories must meet in
order to utilize NDIS. Although officials from LDIS laboratories do not sign
an MOU, LDIS laboratories that upload DNA profiles to an SDIS laboratory
are required to adhere to the MOU signed by the SDIS laboratory.

       States are authorized to upload DNA profiles to NDIS based on local,
state, and federal laws, as well as NDIS regulations. However, states or
localities may maintain NDIS-restricted profiles in SDIS or LDIS. For
instance, a local law may allow for the collection and maintenance of a
victim profile at LDIS but NDIS regulations do not authorize the upload of
that profile to the national level.

       CODIS becomes more useful as the quantity of DNA profiles in the
system increases because the potential for additional leads rises. However,
the utility of CODIS relies upon the completeness, accuracy, and quantity of
profiles that laboratories upload to the system. Incomplete CODIS profiles
are those for which the required number of core loci were not tested or do
not contain all of the DNA information that resulted from a DNA analysis and
may not be searched at NDIS. 6 The probability of a false match among DNA
profiles is reduced as the completeness of a profile increases. Inaccurate
profiles, which contain incorrect DNA information or an incorrect specimen
number, may generate false positive leads, false negative comparisons, or
lead to the misidentification of a sample. Further, laws and regulations

      6
          A “locus” is a specific location on a chromosome. The plural form of locus is loci.

                                               5
exclude certain types of profiles from being uploaded to CODIS to prevent
violations to an individual’s privacy and foster the public’s confidence in
CODIS. Therefore, it is the responsibility of the Laboratory to ensure that it
is adhering to the NDIS participation requirements and the profiles uploaded
to CODIS are complete, accurate, and allowable for inclusion in NDIS.

Laboratory Information

      The Florida Department of Law Enforcement, Orlando Regional Crime
Laboratory participates in the CODIS program as a Local DNA Index System
(LDIS) laboratory. The Laboratory began using DNA to process criminal
cases in 1991 and started uploading profiles to SDIS in 1997. The
Laboratory performs analysis on forensic samples only. Beginning in
September 2006, the Florida Department of Law Enforcement contracted
with two private laboratories for the analysis of forensic samples. In 2009,
the Orlando Regional Crime Laboratory forwarded 392 evidence submissions
to one contractor for analysis, and in 2010, the Laboratory forwarded 275
evidence submissions to the other contractor for analysis. The Laboratory
was first accredited by the American Society of Crime Laboratories
Directors/Laboratory Accreditation Board in 1990 and was reaccredited in
September 2010 for a period of 5 years.




                                      6
              FINDINGS AND RECOMMENDATIONS

      I. Compliance with NDIS Participation Requirements

      The Laboratory complied with the NDIS participation
      requirements we reviewed.

      The NDIS participation requirements, which consist of the MOU and
the NDIS Procedure Manual, establish the responsibilities and obligations of
laboratories that participate in the CODIS program at the national level. The
MOU describes the CODIS-related responsibilities of both the Laboratory and
the FBI. The NDIS Procedure Manual is comprised of the NDIS operational
procedures and provides detailed instructions for laboratories to follow when
performing certain procedures pertinent to NDIS. The NDIS participation
requirements we reviewed are listed in Appendix II of this report.

Results of the OIG Audit

      We found that the Laboratory complied with the NDIS participation
requirements we reviewed. Specifically, we found that the Laboratory
maintained adequate security over its facilities and CODIS servers,
submitted the required background information on all CODIS users to the
FBI, kept records showing all CODIS users were properly trained, and
followed NDIS match procedures. The results of our audit are described in
more detail below.

  •   We interviewed the CODIS Administrator and conducted a
      walk-through tour of the building and the Laboratory. We identified no
      material concerns regarding the Laboratory’s procedures for securing
      the CODIS server or the Laboratory’s facilities.

  •   We interviewed the CODIS Administrator and reviewed documents to
      determine that the Laboratory provided appropriate personnel with
      copies of the NDIS procedures manual. We interviewed two CODIS
      users and determined that they both understood NDIS procedures and
      could access the procedures on the FBI’s Criminal Justice Information
      System Wide Area Network.

  •   We verified with the FBI that all Laboratory CODIS users have
      completed the 2010 DNA Records Acceptable at NDIS training.

  •   For each CODIS user, the Laboratory is required to send certain
      background and security information to the FBI. We verified that the
      Laboratory submitted the required information to the FBI.

                                      7
   •    We determined the Laboratory complied with NDIS requirements
        regarding the maintenance of personnel records.

   •    NDIS match procedures state that offender laboratories or casework
        laboratories should respond to initiating casework laboratories’
        requests to confirm matches within 30 business days of receipt of the
        request. Office of the Inspector General standards state that law
        enforcement should be notified of NDIS match confirmations within
        2 weeks of the confirmation date. We initially reviewed a sample of
        10 NDIS matches and determined that the Laboratory was timely
        confirming matches. However, four of the match confirmations were
        not reported to investigators timely. Exhibit 1 shows the time from
        match confirmation to notification of investigators for the 10 confirmed
        matches we tested.

          Exhibit 1: Time to Notify Investigators of Confirmed Matches
                                                         Business Days
                                                            Between
                                           Date           Confirmation
         Sample      Date Match        Investigators            and
          Match         Was          Were Notified of     Notification of
         Number       Confirmed      the Confirmation     Investigators
            1        06/02/2010         06/17/2010                11
            2        05/03/2010         05/07/2010                 5
            3        01/21/2010         03/05/2010                31
            4        07/07/2009         07/20/2009                 9
            5        07/11/2008         09/23/2008                52
            6        03/31/2008         04/11/2008                 9
            7        07/13/2007         01/16/2008               133
            8        04/18/2007             N/A                 N/A 7
            9        04/29/2005         06/15/2005                33
           10        10/02/2003         10/03/2003                 2
       Source: Florida Department of Law Enforcement, Orlando Regional Crime Laboratory
       files

        For sample matches 3, 5, 7, and 9 the Laboratory notified
        investigators in 31, 52, 133, and 33 business days, respectively, after
        the matches had been confirmed. Untimely notification of confirmed
        matches may hinder investigators from solving crimes timely. We
        asked Laboratory officials to explain these delays. Laboratory officials

        7
         The perpetrator pled guilty to the crime prior to the match, making the match
process unnecessary.

                                             8
     told us that a backlog of casework and the need for Laboratory staff to
     testify in court kept staff busy or limited their time in the laboratory.
     The Crime Laboratory Analyst Supervisor told us that in April 2008 the
     Special Agent in Charge of the Orlando Regional Operations Center
     instructed the Chief of Forensic Services to ensure that investigators
     are notified of confirmed matches within 48 hours. The CODIS
     Administrator told us he notified Laboratory staff that this 48-hour
     notification is to be the protocol. Beginning in February 2010, the
     Laboratory generated a monthly match tracking list used by managers
     and staff to ensure that investigators are notified timely of CODIS
     matches.

     To verify improvement in the timeliness of match confirmations, we
     randomly selected and assessed three additional NDIS matches from
     May 2010 to August 2010. For these matches, the Laboratory notified
     investigators timely. We concluded that the laboratory has changed
     its practices to address the timeliness of match confirmations.

Conclusion

       We made no recommendations concerning our review of NDIS
participation requirements.




                                      9
       II. Compliance with the Quality Assurance Standards

       The Laboratory complied with the Forensic QAS we reviewed.

      During our audit, we considered the Forensic QAS issued by the FBI. 8
These standards describe the quality assurance requirements that the
Laboratory must follow to ensure the quality and integrity of the data it
produces. We also assessed the two most recent QAS reviews that the
laboratory underwent. 9 The QAS we reviewed are listed in Appendix II.

Results of the OIG Audit

  We found that the Laboratory complied with the Forensic QAS tested.
These results are described in more detail below.

   •   We determined the Laboratory underwent a QAS review during each of
       the last 2 calendar years as required by the QAS for laboratory
       reviews. The Laboratory underwent a QAS review by internal
       reviewers in September 2009 and by external reviewers in May 2010.

   •   We reviewed the most recent QAS review reports provided by the
       Crime Laboratory Analyst Supervisor and determined that the FBI’s
       QAS Review Document was used to conduct the most recent external
       and internal reviews. The FBI confirmed that at least one of the QAS
       reviewers for both reviews had successfully completed the FBI QAS
       Review training course. Although there were no findings in the last
       external review report, there were two findings in the last internal
       review report. According to the internal review report, the Laboratory
       did not have a documented program for participation in external
       reviews and did not have a procedure regarding document retention
       for continuing education. We reviewed the corrective actions taken by
       the Florida Department of Law Enforcement and determined that it
       established written policies to address issues raised by the QAS


       8
         Forensic Quality Assurance Standards refer to the Quality Assurance Standards for
Forensic DNA Testing Laboratories, effective July 1, 2009.

       9
          The QAS require that laboratories undergo annual audits. Every other year, the
QAS requires that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits
are not required by the QAS to be performed in accordance with the Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we will refer to the QAS audits as reviews (either an internal
laboratory review or an external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.

                                             10
    reviewers. The Laboratory provided the most recent QAS Review
    Reports to the FBI within the required 30 days.

•   We asked the QAS reviewers who conducted the most recent external
    QAS review to certify that they had no impairments to their
    independence. The QAS reviewers provided us with this certification.

•   We toured the Laboratory building and interviewed the CODIS
    Administrator to determine that the facility appeared to have adequate
    physical access controls in place.

•   We toured the Laboratory building and reviewed policies to determine
    that the Laboratory appeared to have adequate procedures in place to
    ensure the integrity of physical evidence.

•   We interviewed the CODIS Administrator and reviewed policies and
    practices to determine that the Laboratory’s policies and practices
    regarding the separation of known and unknown samples during the
    analysis process appeared to be adequate.

•   We interviewed the CODIS Administrator and toured the Laboratory to
    determine that the Laboratory appeared to be in compliance with
    forensic standards governing the retention of samples and extracts
    after analysis.

•   We interviewed the Laboratory’s Crime Laboratory Analyst Supervisor
    and reviewed documentation to determine that the Laboratory
    outsourced DNA samples for analysis. We verified the contractors had
    undergone a QAS review before the contracts began and that the
    Laboratory had reviewed the quality of the contractors’ work in
    accordance with the FBI’s QAS.

•   We interviewed the Laboratory’s Crime Laboratory Analyst Supervisor
    and reviewed documentation to determine that the Laboratory reviews
    100 percent of the outsourced work performed by the contractor,
    which includes an analyst review of raw data in Genotyper and
    Genescan printouts.

•   We interviewed the Laboratory’s Crime Laboratory Analyst Supervisor
    and reviewed documentation to determine that the Laboratory had
    conducted a site visit of each outsourced Laboratory within the last
    2 years.



                                   11
Conclusion

     We made no recommendations concerning our review of Quality
Assurance Standards.




                                  12
       III. Suitability of Forensic DNA Profiles in CODIS Databases

       Of the 100 forensic profiles sampled, we found 4 were
       unallowable for upload to NDIS. The unallowable profiles either
       belonged to a victim or could not be connected to the crime.
       The CODIS Administrator removed all four profiles from NDIS
       either before or during our work on-site. The remaining 96
       profiles we reviewed were complete, accurate, and allowable for
       inclusion in NDIS.

       We reviewed a sample of the Laboratory’s forensic DNA profiles to
determine whether each profile was complete, accurate, and allowable for
inclusion in NDIS. 10 To test the completeness and accuracy of each profile,
we established standards that require a profile include all the loci for which
the analyst obtained results, and that the values at each locus match those
identified during analysis. 11 Our standards are described in more detail in
Appendix II of this report.

       The FBI’s NDIS operational procedures establish the DNA data
acceptance standards by which laboratories must abide. The FBI also
developed a flowchart as guidance for the laboratories for determining what
is allowable in the forensic index at NDIS. Laboratories are prohibited from
uploading forensic profiles to NDIS that clearly match the DNA profile of the
victim or another known person who is not a suspect. A profile at NDIS that
matches a suspect may be allowable if the contributor is unknown at the
time of collection, however, NDIS guidelines prohibit profiles that match a
suspect if that profile could reasonably have been expected to be on an item
at the crime scene or part of the crime scene independent of the crime. For
instance, a profile from an item seized from the suspect’s person, such as a
shirt, or that was in the possession of the suspect when collected is
generally not a forensic unknown and would not be allowable for upload to
NDIS. The NDIS procedures we reviewed are listed in Appendix II of this
report.

Results of the OIG Audit

       We selected a random sample of 100 profiles out of the 6,980 forensic
profiles the Laboratory had uploaded to NDIS as of October 15, 2010. Of
the 100 forensic profiles sampled, we found 4 were unallowable for upload to

       10
           When a laboratory’s universe of DNA profiles in NDIS exceeds 1,500, our sample
is taken from SDIS rather than directly from NDIS. See Appendix I for further description of
the sample selection.
       11
            A “locus” is a specific location on a chromosome. The plural form of locus is loci.

                                               13
NDIS. 12 The remaining profiles sampled were complete, accurate, and
allowable for inclusion in NDIS. The specific exceptions are explained in
more detail below.

OIG Sample Number CA-49

      After we notified the Laboratory of our audit but before our on-site
work began, the CODIS Administrator identified Sample Number CA-49 as
unallowable and removed it from CODIS. The profile was obtained from
blood on a broken beer mug found at the scene of an assault. The profile
was considered to be crime scene evidence and uploaded into the CODIS as
a forensic unknown. During his preparation for this audit, the CODIS
Administrator concluded that the blood probably belonged to the victim
because it was the victim who bled profusely from the assault, not the
perpetrator. In addition, although the laboratory requested a victim
standard, it was never submitted. Therefore, the CODIS Administrator
determined that the profile was unallowable for uploading into CODIS and
stated that the analyst made an error. This case was processed by the
Laboratory in September 2002.

OIG Sample Number CA-51

      Sample Number CA-51 was a known sample taken from a t-shirt
belonging to a suspect in a stabbing. Further, the police report did not
establish that the t-shirt was obtained from the crime scene. Because the
sample taken from the t-shirt was a known sample and there is no
information about where the police obtained the t-shirt, the profile was
unallowable for upload into CODIS. The case was processed in July 2003.
The CODIS Administrator removed the profile from CODIS while we were on
site.

OIG Sample Number CA-65

      After we notified the Laboratory of our audit but before our on-site
work began, the CODIS Administrator identified Sample Number CA-65 as
unallowable and removed it from CODIS. The profile was obtained from a
broken fighting stick, which was believed to be the weapon used during an
assault. The profile was considered to be from crime scene evidence and
uploaded into the CODIS as a forensic unknown. However, no standard was

       12
           Two of the four profiles were determined to be unallowable for reasons other than
the sample belonging to the victim. In each of these two instances, the sample was
analyzed and uploaded to NDIS prior to the FBI’s issuance of its 2006 guidance pertaining
to the allowability of profiles.

                                            14
obtained from the victim. During preparation for this audit, the CODIS
Administrator identified the victim’s profile in CODIS and matched it to this
profile. Because the profile belonged to the victim, it is unallowable for
upload to CODIS. This case was processed by the Laboratory in October
2001.

OIG Sample Number CA-99

      Sample Number CA-99 was taken from a cigarette butt found in front
of a business that was burglarized. In addition, the police report did not
state that the cigarette butt obtained for evidentiary purposes was
attributable to the putative perpetrator. The police report stated there were
several cigarette butts on the ground in the parking lot spaces in front of the
store. The CODIS Administrator removed this profile from CODIS during the
audit. This case was processed by the Laboratory in May 2005.

      According to a Laboratory official, in 2008 the Laboratory began
requiring police officers to submit more-detailed explanations regarding the
source and circumstances surrounding the collection of items submitted to
the Laboratory for analysis. This practice enabled analysts to make more
informed decisions regarding the allowability of CODIS entries.

Conclusion

      All four of the unallowable profiles in our sample were processed by
the Laboratory prior to June 2005. The remaining samples were complete,
accurate, and allowable for inclusion in NDIS. Therefore, it appears that the
Laboratory has revised its procedures to ensure allowable profiles are
entered into CODIS. We made no recommendations concerning our review
of Forensic DNA profiles.




                                      15
                                                                            APPENDIX I

             OBJECTIVES, SCOPE, AND METHODOLOGY


      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit generally covered the period from November 2008 through
October 2010. The objectives of the audit were to determine if the:
(1) Laboratory was in compliance with the NDIS participation requirements;
(2) Laboratory was in compliance with the Quality Assurance Standards
(QAS) issued by the FBI; and (3) Laboratory’s forensic DNA profiles in
CODIS databases were complete, accurate, and allowable for inclusion in
NDIS. To accomplish the objectives of the audit, we:

   •   Examined internal and external Laboratory QAS review reports and
       supporting documentation for corrective action taken, if any, to
       determine: (a) if the Laboratory complied with the QAS, (b) whether
       repeat findings were identified, and (c) whether recommendations were
       adequately resolved.14

       In accordance with the QAS, the internal and external laboratory review
       procedures are to address, at a minimum, a laboratory’s quality
       assurance program, organization and management, personnel
       qualifications, facilities, evidence control, validation of methods and
       procedures, analytical procedures, calibration and maintenance of
       instruments and equipment, proficiency testing of analysts, corrective
       action for discrepancies and errors, review of case files, reports, safety,
       and previous audits. The QAS require that internal and external reviews



       14
           The QAS require that laboratories undergo annual audits, which every other year,
must be performed by an external agency that performs DNA identification analysis and is
independent of the laboratory being reviewed. The QAS does not require these audits to be
performed in accordance with the Government Auditing Standards (GAS) and are not
performed by the Department of Justice Office of the Inspector General. Therefore, we
refer to the QAS audits as either internal or external laboratory reviews, as applicable, to
avoid confusion with our audits that are conducted in accordance with GAS.


                                             16
       be performed by personnel who have successfully completed the FBI’s
       training course for conducting such reviews.

       As permitted by GAS 7.42 (2007 revision), we generally relied on the
       results of the Laboratory’s external laboratory reviews to determine if
       the Laboratory complied with the QAS. 15 In order to rely on the work
       of non-auditors, GAS requires that we perform procedures to obtain
       sufficient evidence that the work can be relied upon. Therefore, we:
       (1) obtained evidence concerning the qualifications and independence
       of the individuals who conducted the review; and (2) determined that
       the scope, quality, and timing of the audit work performed was
       adequate for reliance in the context of the current audit objectives by
       reviewing the evaluation procedure guide and resultant findings to
       understand the methods and significant assumptions used by the
       individuals conducting the reviews. Based on this work, we
       determined that we could rely on the results of the Laboratory’s
       external laboratory review.

   •   Interviewed Laboratory officials to identify management controls,
       Laboratory operational policies and procedures, Laboratory certifications
       or accreditations, and analytical information related to DNA profiles.

   •   Toured the Laboratory to observe facility security measures as well as
       the procedures and controls related to the receipt, processing,
       analyzing, and storage of forensic evidence and convicted offender DNA
       samples.

   •   Reviewed the Laboratory’s written policies and procedures related to
       conducting internal reviews, resolving review findings, expunging DNA
       profiles from NDIS, and resolving matches among DNA profiles in NDIS.

   •   Reviewed supporting documentation for 10 of 237 NDIS matches to
       determine whether they were resolved in a timely manner. The
       Laboratory provided the universe of 237 NDIS matches as of
       October 13, 2010. The sample was judgmentally selected to include
       both case-to-case and case-to-offender matches. This non-statistical
       sample does not allow projection of the test results to all matches.



       15
           We also considered the results of the Laboratory’s internal laboratory review, but
could not rely on it because it was not performed by personnel independent of the
Laboratory. Further, as noted in Appendix II, we performed audit testing to verify
Laboratory compliance with specific Quality Assurance Standards that have a substantial
effect on the integrity of the DNA profiles uploaded to NDIS.

                                             17
  •   Reviewed supporting documentation to determine whether the
      Laboratory provided adequate vendor oversight.

      Reviewed the case files for selected forensic DNA profiles to determine if
      the profiles were developed in accordance with the Forensic QAS and
      were complete, accurate, and allowable for inclusion in NDIS.

      The NDIS Custodian, via the contractor used by the FBI to maintain
      NDIS and the CODIS software, provided an electronic file identifying the
      6,980 Short Tandem Repeat forensic profiles the Laboratory had
      uploaded to NDIS as of October 15, 2010. We limited our review to a
      sample of 100 profiles. This sample size was determined judgmentally
      because preliminary audit work determined that risk was not
      unacceptably high.

  •   Using the judgmentally-determined sample size, we randomly selected a
      representative sample of labels associated with specific profiles in our
      universe to reduce the effect of any patterns in the list of profiles
      provided to us. However, since the sample size was judgmentally
      determined, the results obtained from testing this limited sample of
      profiles may not be projected to the universe of profiles from which the
      sample was selected.

      The objectives of our audit concerned the Laboratory's compliance with
required standards and the related internal controls. Accordingly, we did not
attach a separate statement on compliance with laws and regulations or a
statement on internal controls to this report. See Appendix II for detailed
information on our audit criteria.




                                      18
                                                                          APPENDIX II

                                AUDIT CRITERIA


      In conducting our audit, we considered the NDIS participation
requirements and the Quality Assurance Standards (QAS). However, we did
not test for compliance with elements that were not applicable to the
Laboratory. In addition, we established standards to test the completeness
and accuracy of DNA profiles as well as the timely notification of DNA profile
matches to law enforcement.

NDIS Participation Requirements

       The NDIS participation requirements, which consist of the
Memorandum of Understanding (MOU) and the NDIS operational procedures,
establish the responsibilities and obligations of laboratories that participate
in NDIS. The MOU requires that NDIS participants comply with federal
legislation and the QAS, as well as NDIS-specific requirements
accompanying the MOU in the form of appendices. We focused our audit on
specific sections of the following NDIS operational procedures.

   •   DNA Data Acceptance Standards
   •   DNA Data Accepted at NDIS
   •   Quality Assurance Standards (QAS) Audits
   •   NDIS DNA Autosearches
   •   Confirm an Interstate Candidate Match
   •   General Responsibilities
   •   Initiate and Maintain a Laboratory’s Participation in NDIS
   •   Security Requirements
   •   CODIS Users
   •   CODIS Administrator Responsibilities
   •   Access to, and Disclosure of, DNA Records and Samples
   •   Upload of DNA Records
   •   Expunge a DNA Record
   •   The FBI Flowchart: A Guide to Determining What is Allowable in the
       Forensic Index at NDIS 16




       16
          The FBI Flowchart is guidance issued to NDIS-participating laboratories separate
from the MOU and NDIS operational procedures. The flowchart is contained in the 2010
CODIS Administrator’s Handbook and has been provided to laboratories in referendums
such as CODIS conferences.

                                            19
Quality Assurance Standards

      The FBI issued two sets of Quality Assurance Standards (QAS): QAS
for Forensic DNA Testing Laboratories, effective July 1, 2009 (Forensic QAS);
and QAS for DNA Databasing Laboratories, effective July 1, 2009 (Offender
QAS). The Forensic QAS and the Offender QAS describe the quality
assurance requirements that the Laboratory should follow to ensure the
quality and integrity of the data it produces.

       For our audit, we generally relied on the reported results of the
Laboratory’s most recent annual external review to determine if the
Laboratory was in compliance with the QAS. Additionally, we performed
audit work to verify that the Laboratory was in compliance with the QAS
listed below because they have a substantial effect on the integrity of the
DNA profiles uploaded to NDIS.

   •   Facilities (Forensic QAS 6.1): The laboratory shall have a facility that is
       designed to ensure the integrity of the analyses and the evidence.

   •   Evidence Control (Forensic QAS 7.1): The laboratory shall have and
       follow a documented evidence control system to ensure the integrity of
       physical evidence. Where possible, the laboratory shall retain or return
       a portion of the evidence sample or extract.

   •   Analytical Procedures (Forensic QAS 9.5): The laboratory shall monitor
       the analytical procedures using [appropriate] controls and standards.

   •   Review (Forensic QAS 12.1): The laboratory shall conduct
       administrative and technical reviews of all case files and reports to
       ensure conclusions and supporting data are reasonable and within the
       constraints of scientific knowledge.

   •   Reviews (Forensic QAS 15.1 and 15.2): The laboratory shall be audited
       annually in accordance with the QAS. The annual audits shall occur
       every calendar year and shall be at least 6 months and no more than
       18 months apart.

       At least once every 2 years, an external audit shall be conducted by an
       audit team comprised of qualified auditors from a second agency(ies)
       and having at least one team member who is or has been previously
       qualified in the laboratory’s current DNA technologies and platform.




                                        20
  •   Outsourcing (Forensic QAS Standard 17.1): A vendor laboratory
      performing forensic and database DNA analysis shall comply with these
      Standards and the accreditation requirements of federal law.

      Forensic QAS 17.4: An NDIS participating laboratory shall have and
      follow a procedure to verify the integrity of the DNA data received
      through the performance of the technical review of DNA data from a
      vendor laboratory.

Office of the Inspector General Standards

       We established standards to test the completeness and accuracy of
DNA profiles as well as the timely notification of law enforcement when DNA
profile matches occur in NDIS. Our standards are listed below.

  •   Completeness of DNA Profiles: A profile must include each value
      returned at each locus for which the analyst obtained results. Our
      rationale for this standard is that the probability of a false match
      among DNA profiles is reduced as the number of loci included in a
      profile increases. A false match would require the unnecessary use of
      laboratory resources to refute the match.

  •   Accuracy of DNA Profiles: The values at each locus of a profile must
      match those identified during analysis. Our rationale for this standard
      is that inaccurate profiles may: (1) preclude DNA profiles from being
      matched and, therefore, the potential to link convicted offenders to a
      crime or to link previously unrelated crimes to each other may be lost;
      or (2) result in a false match that would require the unnecessary use
      of laboratory resources to refute the match.

  •   Timely Notification of Law Enforcement When DNA Profile Matches
      Occur in NDIS: Laboratories should notify law enforcement personnel
      of NDIS matches within 2 weeks of the match confirmation date,
      unless there are extenuating circumstances. Our rationale for this
      standard is that untimely notification of law enforcement personnel
      may result in the suspected perpetrator committing additional, and
      possibly more egregious, crimes if the individual is not deceased or
      already incarcerated for the commission of other crimes.




                                     21
                                                                          APPENDIX III

       FEDERAL BUREAU OF INVESTIGATION RESPONSE
                                                         U.S. Department of Justice

                                                         Federal Bureau of Investigation

                                                         Washington D.C. 20535-0001

                                                         March 15, 2011




Ferris B. Polk
Regional Audit Manager
Atlanta Regional Audit Office
Office of the Inspector General
75 Spring Street
Atlanta, GA 30303



Dear Mr. Polk:

              Your memorandum to Director Mueller forwarding the draft audit report for
the Florida Department of Law Enforcement, Orlando Regional Crime Laboratory, Orlando,
Florida (Laboratory), has been referred to me for response.

              Your draft report contained no recommendations relating to the Laboratory's
compliance with the FBI’s Memorandum of Understanding and Quality Assurance Standards
for DNA Testing Laboratories. The CODIS Unit reviewed the draft report and since it
appears that the Laboratory is in compliance with NDIS participation requirements, the
CODIS Unit has no comments to provide to the draft report.

              Thank you for sharing the draft audit report with us. If you have any
questions, please feel free to contact Jennifer C. Luttman, Chief of the CODIS Unit, at (703)
632-8315.

                                                  Sincerely,

                                                         /s/

                                                  Alice R. Isenberg, Ph.D
                                                  Section Chief
                                                  Biometrics Analysis Section
                                                  FBI Laboratory




                                             22
                                                                APPENDIX IV

          OFFICE OF THE INSPECTOR GENERAL
     ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
                   TO CLOSE REPORT

       The Office of the Inspector General provided a draft of this audit report
to the Federal Bureau of Investigation (FBI) and to the Chief of Forensic
Services, Florida Department of Law Enforcement, Orlando Regional Crime
Laboratory. The FBI’s comments are incorporated as Appendix III of this
final report. This report contains no recommendations and is issued closed.




                                      23
